<html>
<title> - LAND EXCHANGE IN IDAHO; BUILDING AND LAND CONVEYANCE IN SANDPOINT, ID; WASHOE INDIAN TRIBE TRUST; AMEND FEDERAL LAND POLICY AND MANAGEMENT ACT; AND LAND EXCHANGE IN COCONINO AND TONTO NATIONAL FORESTS</title>
<body><pre>[Senate Hearing 108-80]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-80
 
 LAND EXCHANGE IN IDAHO; BUILDING AND LAND CONVEYANCE IN SANDPOINT, ID; 
   WASHOE INDIAN TRIBE TRUST; AMEND FEDERAL LAND POLICY AND MANAGEMENT 
      ACT; AND LAND EXCHANGE IN COCONINO AND TONTO NATIONAL FORESTS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                       S. 434             H.R. 622
                                                  
                       S. 4               H.R. 762
                                                  
                       S. 490

                               __________

                             JUNE 12, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-831 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel

                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa

GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Kira Finkler, Democratic Council



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Ferguson, Jerrell, Diamond Point Summer Homes Association........     9
Kyl, Hon. Jon, U.S. Senator from Arizona.........................     9
Reid, Hon. Harry, U.S. Senator from Nevada.......................     8
Thompson, Tom, Deputy Chief, National Forest Systems, Department 
  of Agriculture.................................................     2
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    10

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    13

                              Appendix II

Additional material submitted for the record.....................    15
      
LAND EXCHANGE IN IDAHO; BUILDING AND LAND CONVEYANCE IN SANDPOINT, ID; 
  WASHOE INDIAN TRIBE TRUST; AMEND FEDERAL LAND POLICY AND MANAGEMENT 
     ACT; AND LAND EXCHANGE IN COCONINO AND TONTO NATIONAL FORESTS
                              ----------                              


                        THURSDAY, JUNE 12, 2003

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:44 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone. The Subcommittee 
on Public Lands and Forests of the full Energy and Natural 
Resources Committee of the U.S. Senate will be convened. I 
apologize for running a little late. The floor called a vote on 
us right at 2:30, so our timing has slipped a little bit. But 
anyway, again thank you all for being here.
    I do not know whether my ranking member, Senator Wyden, 
will be able to attend. I saw him in the hall and he said: ``Do 
you need me?'' It sounded like he had another schedule that had 
him committed.
    But anyway, I want to welcome the Deputy Chief of the 
National Forest Service, Tom Thompson, who is here to testify 
on behalf of both the Forest Service and the Bureau of Land 
Management on five bills that we will consider today. I believe 
these bills will be noncontroversial. Thus, I hope to move 
through the hearing with an unusual thing here in the Senate, 
deliberate speed.
    I have two Idaho proposals that we will consider today. The 
first is S. 434, the Idaho Panhandle National Forest 
Improvement Act for 2003. It is an opportunity to provide land 
for local benefits and to meet the facility needs of the Forest 
Service in the Silver Valley of Idaho. This bill will offer for 
sale or exchange administrative parcels of land in the Idaho 
Panhandle National Forest that the Forest Service has 
identified as no longer in the interests of public ownership 
and that disposing of them will serve the public interest. The 
proceeds from these sales will be used to improve or replace 
the Forest Service ranger station in Idaho's Silver Valley.
    The second is S. 435, the Sandpoint Land and Facilities Act 
of 2003. It is a unique opportunity to meet the facility needs 
of the Forest Service in Sandpoint, Idaho, and to provide 
facilities for local county government. This bill will transfer 
ownership of the local General Services Administration 
building, which is currently housing the Forest Service, to 
that agency. The bill also provides authority for the Forest 
Service to work with Bonner County, Idaho, in exchange of 
existing buildings to Bonner County in exchange for a new and 
more functional building for the Forest Service.
    This transfer of ownership will not only provide the 
opportunity for the local Forest Service office to obtain a 
facility that best meets their needs, but also will meet the 
facility needs of Bonner County.
    Both of these bills are a win-win situation for the Forest 
Service and the community and are outstanding examples of the 
Federal Government at the local level working with the 
communities to create common sense solutions that result in 
more efficient operations and better service to the public.
    As with our last hearing, we are considering a number of 
bills that were passed by the U.S. House of Representatives or 
the Senate in the 107th session of Congress. H.R. 762 is 
Congresswoman Barbara Cubin's bill to amend the Federal Land 
Policy and Management Act of 1976 and the Mineral Leasing Act 
dealing with leasing right of ways, and H.R. 622, Congressman 
Renzi's proposal to exchange certain lands in the Coconino and 
Tonto National Forests in Arizona, have been through the House 
process twice, so we will try not to put them through that 
again.
    Likewise, S. 490, Senator Reid and Senator Ensign's bill to 
direct the Secretary of Agriculture to convey certain lands in 
the Lake Tahoe Basin Management Unit Nevada to the Secretary of 
the Interior, to be held in trust for the Washoe Indian Tribe 
of Nevada and California. This bill was passed by both bodies 
in the last session.
    We know of no major concerns with any of these five bills. 
With that and no other Senators attending at this time, we will 
recognize our Deputy Chief for testimony on these pieces of 
legislation. Tom, welcome to the committee.

   STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
               SYSTEMS, DEPARTMENT OF AGRICULTURE

    Mr. Thompson. Thank you. Mr. Chairman, thank you for this 
opportunity to appear before you this afternoon. I am Tom 
Thompson, Deputy Chief of the National Forest System. I am here 
to provide the Department's comments on these five bills. The 
Department supports S. 434 and H.R. 622. The Department does 
not oppose H.R. 762 with some changes. The Department has some 
concerns with S. 490 and would like to work with the committee 
to address those concerns.
    Let me start with H.R. 622, the Tonto and Coconino National 
Forests Land Exchange Act. H.R. 622 directs the Secretary to 
exchange 108 acres of National Forest System land within the 
Tonto National Forest northeast of Payson, Arizona, and 
currently occupied by 45 residential cabins under special use 
permits. We would exchange that for 495 acres of non-Federal 
land known as the Q Ranch within the Tonto National Forest east 
of Young, Arizona. This exchange is identified in the bill as 
``Diamond Point-Q Ranch Land Exchange.''
    The bill also directs the Secretary to exchange 
approximately 222 acres of National Forest System land within 
the Tonto adjacent to the town of Payson near the municipal 
airport for 157 acres of private land owned by the Montezuma 
Castle Land Exchange Joint Venture which is adjacent to the 
Montezuma Castle National Monument and nearly 108 acres of 
private land known as the Double Cabin Parklands. Both of these 
private parcels are within the Coconino National Forest 
boundary.
    H.R. 622 requires that the values of the non-Federal and 
Federal lands be exchanged on equal or equalized, as determined 
by the Secretary through our appraisal by a qualified appraiser 
and performed in conformance with the uniform standards for 
Federal land acquisitions and the Federal Land Policy and 
Management Act of 1976.
    The bill requires that the Secretary execute the Montezuma 
Castle and Diamond Point land exchanges within six months after 
receipt of an offer from the private landowners unless the 
Secretary and private landowners mutually agree to extend such 
deadline.
    The Department supports the concept of exchanging National 
Forest System lands which were identified in H.R. 622. However, 
we would like to work with the committee to clarify and make 
sure that the priorities for deleting the Federal properties 
from exchange--to ensure that the priorities that we have are 
the ones that should be there, so that if potential parcels are 
not exchanged, that we have manageable ownership boundaries 
after the exchange is completed.
    Let me move to H.R. 762, which provides for continued 
predictability and inter-agency consistency and efficiency in 
determining rental fees for linear rights of way uses 
authorized by the Forest Service and the Bureau of Land 
Management on Federal lands which they administer. It would 
apply to right of ways authorizations for linear facilities, 
including oil and gas pipelines, electric transmission lines, 
telephone, fiber optic communication lines, water lines, and 
roads.
    The Mineral Leasing Act of 1920 as amended and the Federal 
Land Policy and Management Act of 1976 as amended direct that 
the holder of a permit of the right of way pay fair or market 
value of the right of way use to the United States, as 
determined by the appropriate Secretary who grants or issues 
the right of way. The Secretary's discretion to determine the 
manner in which the market value is established has often been 
the subject of dispute and contention. In an April 11, 2002, 
hearing on the House Resources Committee on National Parks, 
Recreation, and Public Lands on a previous version of the bill, 
Peter Culp, the Assistant Director for the Bureau of Land 
Management, testified that the Department of the Interior was 
committed to ensuring that these right of way rental fees for 
the use of Federal land managed by the BLM are appropriate and 
fair and that rates for such rental fees were predictable and 
certain.
    He further testified that the current land-based fee rates 
for linear right of way facilities can continue to be an 
appropriate basis for derivation of right of way rental fee, 
with periodic adjustments for inflation.
    H.R. 762 as presently written would give the Secretaries 
one year after the date of its enactment to make such changes 
through administrative procedures needed to revise the 
regulations and the agency policy. Based on our experience with 
such procedures, we would recommend that we would be provided 
at least 2 years following the date of enactment for the 
respective Secretaries to complete those regulatory and policy 
changes.
    The Department of Justice has also advised us of its 
concern with the characterization of the fee schedule as ``fair 
market rental value'' in the heading of section 2 and ``fair 
market value'' in new paragraph K, and recommends that these 
descriptions be changed. ``Fair market value'' and ``rental 
value'' are terms of art within both the appraisal profession 
and case law and the bill should not confuse the two terms. Any 
market value determination of value requires an analysis of 
what is happening in the marketplace as opposed to 
establishment of a fee schedule as provided in H.R. 762.
    While H.R. 762 is generally consistent with our agency's 
current plans to update our linear fee schedules, it would 
constrain future agency options in a way that may be 
undesirable. For example, there may be limited cases where a 
site-specific evaluation may be more appropriate than the use 
of a fee schedule.
    However, we recognize the passage of this bill would 
provide greater stability and reduce the amount of uncertainty 
felt by permit holders, while generally providing a reasonable 
rental fee for these linear uses of the Federal lands. 
Therefore, with the adoption of the earlier recommendations, we 
would not oppose enactment of this bill.
    Let me move to S. 434, which is the Idaho Panhandle Forest 
Improvement Act of 2003, which authorizes the Secretary of 
Agriculture to sell or exchange all or parts of certain tracts 
of National Forest System land in the State of Idaho and to use 
the proceeds for acquisition of land and construction of a new 
ranger station in the Silver Valley portion of Idaho Panhandle 
National Forest.
    To the extent that excess proceeds after construction of 
the ranger district, the bill would allow the proceeds to be 
used to acquire land, construct or rehabilitate other 
facilities on the Idaho Panhandle.
    The Department supports S. 432 because the tracts 
identified for sale or exchange are no longer needed for Forest 
Service administrative purposes and the conveyances of these 
tracts would reduce long-term costs of administering related 
special use permits. Additionally, the construction of a new 
ranger station in Silver Valley would certainly enhance public 
service and improve public safety.
    As S. 434 illustrates, the Department has a number of 
facilities and opportunities to be rid of land that is excess 
to the agency needs. The fiscal year 2004 budget contains a 
proposal for establishment of a Federal Acquisition and 
Enhancement Fund that would enable the Secretary to sell such 
units excess to the agency's need and utilize proceeds from 
those sales for acquisition or development of land and 
improvements for administrative purposes.
    Funds collected under this authority would address backlogs 
and administrative consolidations while improving efficiencies 
through the reconstruction of functionally obsolete facilities 
or construction of new facilities. To this end, the Department 
will submit proposed legislation concerning this fund in the 
upcoming weeks.
    Let me move to S. 435, Sandpoint Land and Facilities 
Conveyance of 2003. S. 435 directs the Administrator of the 
General Services Administration to transfer to the Secretary of 
Agriculture without reimbursement administrative jurisdiction 
over the Sandpoint Federal Building and 3.17 acres of land in 
Sandpoint, Idaho. The bill requires the Secretary to assume the 
obligation of the Administrator to repay the Federal Finance 
Bank the debt incurred with respect to the property.
    S. 435 authorizes the Secretary to sell or exchange all 
right, title, and interest of the Forest Service in and to the 
property for market value, and exchange consideration may, if 
elected by the Secretary, include the construction of 
administrative facilities for the National Forest System in 
Bonner County.
    The bill requires the entity acquiring the property honor 
all outstanding indebtedness on the property to the Federal 
Finance Bank. Further, the Secretary can use proceeds from the 
sale of the property only for the acquisition, construction, or 
improvement of administrative facilities and associated land, 
the acquisition of lands and interests in land for additional 
National Forest System land in the northern region of the 
Forest Service in Idaho.
    The Forest Service has leased this facility from the 
General Services Administration, the Sandpoint Federal 
Building, for almost 30 years. The building is too large for 
the combined Federal presence and steps should be taken to 
address this problem.
    Moving to S. 490, the Washoe Tribe Land Conveyance, S. 490 
directs the Secretary of Agriculture to convey 24.3 acres of 
National Forest System land within the Lake Tahoe Basin 
Management Unit to the Secretary of the Interior, to be held in 
trust for the Washoe Indian Tribe of Nevada and California. The 
conveyance would be subject to a reservation of a non-exclusive 
easement on the forest road to continue public and 
administrative access to other National Forest System land. In 
addition, the bill would grant vehicular access over a forest 
road to the parcel by tribal members under certain 
circumstances.
    The transfer would occur without consideration. The 
Department believes the bill would defeat public expectations 
of continued access to this lakefront parcel. The Department 
has concerns with S. 490 and would like to work with the 
committee on alternatives that would meet tribal needs, as 
discussed in our testimony. The Department understands and 
appreciates fully the goals of the Washoe Tribe to acquire land 
in Lake Tahoe Basin for the purpose of exercising recurring 
exclusive use of the Lake Tahoe shorefront property for 
traditional and cultural customary purposes.
    The Forest Service has taken extensive actions to meet the 
needs of the tribe within the limits of authority. At present 
the Washoe Tribe holds a special use permit with the Forest 
Service for uses described in section 1(b)(2). These uses have 
been analyzed and approved through the Forest Service special 
use permitting process and appear to meet the needs of the 
tribe.
    The 24.3 acre parcel identified in S. 490 for transfer to 
the Department of the Interior was originally acquired by the 
Forest Service as a part of a large purchase using funds 
authorized with the Land and Water Conservation Fund to provide 
public access to recreational resources on Lake Tahoe Basin.
    Transfer of this parcel to the Department of the Interior 
to be held in trust for exclusive use by the Washoe Tribe is 
not consistent with the public purposes for which the land was 
purchased. The Lake Tahoe Basin Management Unit has placed a 
high priority on acquisition and retention of lakefront 
property for public access and watershed protection. Any land 
conveyance should be with consideration to ensure public 
obtains market value. The Department also has concerns with the 
reversionary interest identified in section 1(e)(2).
    In lieu of transferring the parcel to the Secretary of the 
Interior, the Department recommends the bill be amended to 
authorize the Secretary of Agriculture, upon the tribe's 
request, to close the parcel to general public use on a 
temporary basis to protect the privacy of traditional and 
customary uses, cultural uses, of the land by the tribe.
    We note that the Congress has provided similar statutory 
authority to the Secretary of the Interior in section 705(a) of 
the California Desert Protection Act and section 50(c) of 
Public Law 100-225, and to the Secretary of Agriculture under 
section 2(d)(1) of Public Law U.S.C. 460(d)(1), an act that 
established that Jemez National Recreational Area.
    Additionally, to meet the tribe's goal of using the parcel 
for cultural, horticultural, and ethnobotany purposes, the 
provision could be added to the bill to authorize the Secretary 
of Agriculture to ensure--or issue a permit to the Washoe Tribe 
for these purposes. The Department believes that this approach 
would accommodate both the goals of the Washoe Tribe and the 
objective of maintaining public access to the parcel.
    This concludes my statement. I would be happy to answer any 
questions.
    Senator Craig. Well, Tom, thank you very much. I have 
several questions here, none of them in great length, but I 
think points of clarification as we move to final action on 
these pieces.
    In S. 435, it has been my impression that the Forest 
Service strongly supports this legislation. Is that true?
    Mr. Thompson. We believe that the transfer would certainly 
be beneficial.
    Senator Craig. That is as good as it gets?
    Mr. Thompson. That is where we have been as far--the 
transfer would certainly be beneficial to the forest.
    Senator Craig. Fine enough. We will take it at that.
    In S. 490, I note that you now have a number of concerns. 
In November 2001, Ms. Kimball, then Acting Associate Deputy 
Chief, testified on S. 691--that is the same version in the 
107th--that, and I quote, ``The administration has not 
completed its review of S. 691. We plan to conduct a more 
thorough review of the language over the next few weeks, to 
consult with the Department of the Interior and explore 
additional options. Once that review is completed, we would 
like to work with the committee and the bill's sponsors to 
resolve concerns that our review might identify.''
    On June 28, 2002, 6 months later, we marked up S. 691 and 
favorably reported the bill out of the committee.
    Given the plans for the agency ``to work with the committee 
and the sponsors to resolve concerns that our review might 
identify,'' could you provide my staff with documentation of 
when and who your staff communicated with regarding your 
review? I need to know when you discussed your concerns with 
the sponsors and when you discussed your concerns with the 
Energy Committee staff. Can you have the documentation to the 
staff by next Tuesday?
    Mr. Thompson. I certainly think we could provide that 
information. I have not got it with me, obviously.
    Senator Craig. Okay, that would be appreciated.
    On S. 762, the rights of way bill, why does it take so 
long, 2 years? Is it a staffing problem? If so, how can we help 
you?
    Mr. Thompson. As I understand it, the biggest problem is 
doing the market analysis and doing it with--the scope and the 
scale of that, the time that it is going to take. That in 
itself is going to use perhaps as much as a year. Then you have 
got the regulations, the public comment, the evaluation, and 
that would take it through a good chunk of that second year.
    The market analysis is the big time-consumer.
    Senator Craig. How many miles of rights of way are we 
talking about here?
    Mr. Thompson. Well, for the Forest Service, we have I think 
20,000 of these types of right of ways.
    Senator Craig. Total.
    Mr. Thompson. Total, 20,000.
    Senator Craig. But in this instance?
    Mr. Thompson. Of that, there is about 105,000 miles.
    Senator Craig. Total.
    Mr. Thompson. Total. So it is not a small task. And of 
course, looking at it across the entire United States, a lot of 
different country, a lot of different analysis to do.
    Senator Craig. Well, that is a daunting task. I do not 
disagree with that. At the same time, oftentimes a failure to 
perform when we know it is going to happen holds in abeyance 
some tremendous economic activity out there as it relates to 
the investment and people waiting under the general assumption 
that these kinds of things are relatively routine once certain 
priorities and values are established.
    On S. 622, I note in your testimony that you have concern 
about the priorities of deleting Federal properties from the 
exchange to ensure that a manageable land ownership pattern 
remains. I also understand that the language in the bill on the 
priorities for deleting Federal properties was agreed to by the 
Forest Service who was in place when the legislation was 
developed and passed in the House in the last session.
    Can you help me understand what has changed between last 
year and this year regarding the issue, because it is my 
understanding you wrote the language.
    Mr. Thompson. I think, as I said, I think we just need to 
work to make sure that we have the right order. I think there 
is a little confusion as to whether it is or it is not, and it 
is going to take a very little bit of time to straighten that 
out. If we have the right order in there right now, we are very 
comfortable with it. If it is out of order, I think it would be 
good to make sure that it is right, and that is all that we are 
saying.
    Senator Craig. This is a message to be conveyed by you, not 
specifically a question of you, Tom. On May 7, I sent a letter 
to Chief Bosworth regarding an issue related to phosphate 
mining leaseholders in southeastern Idaho. My office has been 
inquiring on a weekly basis as to when I will receive response 
to the letter. The issue is one of some time-sensitiveness for 
the leaseholder involved, and I ask you to inquire into the 
matter, if you would, as to when we might be able to get a 
response to it.
    Mr. Thompson. I can assure you that I will.
    Senator Craig. And oh, by the way, I have a copy of it if 
you are interested. Both Congressman Mike Simpson--it is in his 
district--and I are concerned about this, and if we can get an 
answer sooner rather than later, it would be greatly 
appreciated.
    Mr. Thompson. We will provide you an answer as to when we 
can get it by tomorrow and certainly expedite everything we can 
to get a reply.
    Senator Craig. Super.
    Senator Bingaman will be submitting questions for the 
record. Also, for-the-record statements by Senator Harry Reid, 
Senator John Kyl, and Senator Craig Thomas will become a part 
of the record.
    [The prepared statements of Senators Reid, Kyl, and Thomas 
follow:]
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    Mr. Chairman, I want to thank you and the committee for holding 
this important hearing today on the conveyance of 24.3 acres within the 
Lake Tahoe Basin north of Skunk Harbor, Nevada, to the Washoe Tribe of 
Nevada and California. This is not an expansive tract of land, but it 
is of profound significance to the Washoe people. This bill is 
supported and cosponsored by Senator Ensign.
    In 1997, a diverse group of federal, state, and local government 
leaders gathered at the Lake Tahoe Presidential Forum to consider the 
challenges facing the extraordinary natural, recreational, and 
ecological resources of the Lake Tahoe region and to discuss the future 
of the Lake Tahoe basin. During that Forum, the participants made a 
commitment to support the traditional and customary uses of the Lake 
Tahoe basin by the Washoe Tribe--most importantly, to provide the Tribe 
access to the shore of Lake Tahoe for cultural purposes. Lake Tahoe has 
not only been a part of the civilization and culture of the Washoe 
Tribe, it is fundamental to who the Washoe are as a people.
    The ancestral homeland of the Washoe Tribe of Nevada and California 
included an area of over 5,000 square miles in and around the Lake 
Tahoe Basin. My bill conveys a small tract of land from the Lake Tahoe 
Basin Management Unit of the U.S. Forest Service to the Secretary of 
the Interior to be held in trust for the Tribe. The bill ensures that 
members of the Tribe will have the opportunity to engage in their 
traditional and customary cultural practices at the Lake in the future 
as they have done in the past. This will help the tribe meet the needs 
of spiritual renewal and general reunification of the Tribe with its 
aboriginal lands--forever. The conveyance will promote the Tribe's 
efforts in land and environmental stewardship in partnership with 
local, state, and federal agencies to preserve and protect the 
resources of the Lake for all generations.
    Mr. Chairman, the purpose of the bill is clear: the conveyed land 
will be available only for non-commercial tribal purposes. I would like 
to explain the history behind the bill's ``no development'' clause. 
This provision was added at the request of the Washoe Tribe to 
guarantee that this land remains in its present unspoiled state for 
traditional and customary cultural uses. Tribal elders have indicated 
to me that these purposes could not be accomplished if the land were 
commercially developed, so I am pleased to include a provision ensuring 
that this land will remain in its natural state. It serves as a 
testimonial to the tribe's integrity and to how important the return of 
this land is to the Washoe people, and ensures that the conveyance will 
be consistent with our ongoing efforts to save Lake Tahoe. The 
collective wisdom of the Tribe represents a gold mine of historical 
knowledge and natural understanding of the processes at work within the 
basin, and their help is essential to achieving the goal of saving Lake 
Tahoe. Indeed, one of the most compelling reasons to support this bill 
is that the Washoe Tribe serves as such a powerful advocate for the 
Lake.
    Mr. Chairman, this is not a controversial bill. It passed the 
Senate unanimously in 2000 and 2002, and passed the House with 
unrelated amendments, but the two versions of the bill were not 
reconciled and neither version became law. It is a good bill, and it is 
the right thing to do. I hope that the third Congress is a charm and 
that we make good on our important promise to the Washoe Tribe.
                                 ______
                                 
     Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona
    Mr. Chairman, H.R. 622, ``To provide for the exchange of certain 
lands in the Coconino and Tonto National Forests in Arizona, and for 
other purposes,'' directs that two land exchanges take place in the 
Tonto and Coconino National Forests in Arizona: the Montezuma Castle/
Payson Airport Land Exchange and the Diamond Point Land Exchange.
    The legislation authorizes the Forest Service to enter into equal-
value land swaps to acquire a 157-acre parcel of private land to 
enhance and protect the Montezuma Castle National Monument, as well as 
a 143-acre open meadow wildlife habitat known as Double Cabin Park. 
Both parcels are in the Coconino National Forest.
    In exchange, approximately 221 acres of national forest property 
adjoining the Town of Payson municipal airport would be acquired.
    The legislation also authorizes the Forest Service to acquire a 
495-acre parcel known as the Q Ranch, which is currently owned by The 
Conservation Fund. In exchange, the Diamond Point Summer Homes 
Association will acquire 108 acres of federal land that has been 
occupied by the association's 45 residential cabins since the 1950's.
    The Tonto National Forest Plan specifically recommends conveyance 
of the federal land.
    This is common sense legislation that accomplishes goals that the 
Forest Service has stated are a priority. The administrative process 
has been very protracted, but the result is a plan that all parties see 
as beneficial. I therefore look forward to this committee's hearing on 
H.R. 622, and I ask that the statement of Jerrell Ferguson, a member of 
the Diamond Point Summer Homes Association, be inserted in the record 
at this point.
 Statement of Jerrell Ferguson, Diamond Point Summer Homes Association
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify today. My name is Jerrell (``Jim'') Ferguson, 
and I am a member of the Diamond Point Summer Homes Association. Our 
association has 45 residential cabins currently permitted on federal 
land within the Tonto National Forest east of Payson, Arizona.

                      diamond point land exchange

    Over forty years ago, under a program to encourage public use of 
the nation's forests, the U.S. Forest Service permitted our members to 
build cabins on a parcel of National Forest land located near Diamond 
Point. Like other similar ``recreation residences'', the 108-acre 
parcel has no public access and is managed as if in private ownership, 
with a number of roads, driveways, water systems, and other 
improvements associated with the residences.
    The Federal land was identified for disposal in the 1985 Tonto 
National Forest Plan. We began discussing a land exchange with the 
Forest Service in 1999. In November 2000, we proposed an exchange of 
the 495-acre Q Ranch parcel for the Federal land underlying our 
members' cabins. Because the Q Ranch acquisition was of such 
significant public interest, and because the owner of the Ranch had 
listed it for sale on the private market, The Conservation Fund, a 
national leader in land protection, agreed to purchase the property and 
option it to the Association for use in the land exchange. The Forest 
Service confirmed that the Q Ranch was a very high priority for Federal 
acquisition and encouraged us to proceed with the exchange proposal.
    Since that time, we have paid for a land survey and a cultural 
resources inventory of the Federal property. The Conservation Fund 
spent over $2 million dollars of their limited resources on the Q 
Ranch, anticipating the exchange would have been completed by now, and 
thereby releasing their funds for further land protection work. We have 
had numerous meetings with Forest Service representatives at all levels 
and while their vocal support for the transaction remains strong, 
almost no progress has been made in advancing the process. In fact, as 
alluded to by Congressman Hayworth, in the seventeen months since our 
first formal proposal to the Forest Service, four of our members have 
died. Yet, the agency has still not executed the non-binding Agreement 
to Initiate the exchange process.
    The Federal land proposed for conveyance to the private sector is 
already treated like private land and was specifically identified in 
the Forest Plan for disposal. The Q Ranch acquisition represents the 
third and final transaction necessary for the United States to acquire 
a major inholding in the Tonto National Forest. The exchange proposal 
has enjoyed broad support and literally no opposition. This exchange is 
so clearly in the public interest, it is difficult to explain why the 
Forest Service has been incapable of moving it forward under the 
administrative process.

                     montezuma castle land exchange

    Although I do not represent the private proponents of the Montezuma 
Castle Land Exchange, I am prepared to speak on their behalf. Since the 
mid-1990's, they have been frustrated in their efforts to complete a 
straight-forward exchange with the Forest Service.
    This land exchange was originally proposed to the Forest Service in 
May 1994 and included a number of parcels of non-Federal land in 
exchange Federal land within and around the Town of Payson. The Forest 
Service had encouraged the acquisition of the private lands for the 
exchange, including the Montezuma Castle and Double Cabin Park parcels. 
However, the agency never authorized the documents required to initiate 
an administrative exchange. The local landowners endured years of 
frustration, and significant investment in cultural resources surveys, 
valuation work and NEPA studies.
    With the January 2000 encouragement of the former Tonto National 
Forest Supervisor and the Town of Payson, the participants spent 
additional funds to restructure and reduce the size of the exchange 
proposal. However, with a change in Forest Supervisors, the agency then 
abandoned the exchange, and the local investors were left holding 
millions of dollars worth of land that the Forest Service had 
encouraged them to purchase. The current Montezuma Castle Land Exchange 
proposal involves approximately 222 acres of Federal land needed for 
commercial and residential development within the Town of Payson.
    The land at Montezuma Castle is critical to the Monument's views 
shed, and includes important riparian habitat along Beaver Creek. The 
land at Double Cabin Park includes a vast high meadow and wetlands that 
provide important wildlife habitat. Congressman Hayworth's legislation 
authorizes the Forest Service to transfer all or a portion of the 
Montezuma Castle parcel to the National Park Service if deemed 
appropriate by the Secretaries of the Interior and Agriculture. The 
exchange is supported by the Town of Payson, the Gila County Board of 
Supervisors, the Payson Regional Economic Development Group, the Rim 
Country Regional Chamber of Commerce, and the National Park Service.
    Mr. Chairman, that concludes my testimony, with one exception. I 
want to once again personally thank Congressman Hayworth and you for 
holding this hearing and hopefully passing legislation that will ensure 
that highly desirable lands are secured for the public, while the 
interests of private individuals and the Town of Payson are served.
                                 ______
                                 
   Prepared Statement of Hon. Craig Thomas, U.S. Senator From Wyoming
    Thank you, Mr. Chairman. I am here today to speak in support of 
H.R. 762, a bill introduced by my colleague from Wyoming, Congresswoman 
Barbara Cubin. H.R. 762 would amend the Federal Land Policy and 
Management Act of 1976 and the Minerals Leasing Act to clarify the 
method by which the Secretaries of the Interior and Agriculture 
determine the fair market value of certain rights-of-way granted, 
issued, or renewed, under these Acts.
    Four years ago, the Bureau of Land Management and the U.S. Forest 
Service abandoned the traditional linear fee rent method, where rent is 
calculated based on the area of the right-of-way times the market value 
of the land, and adopted a per line fee, sometimes referred to as 
fiberent, based on the value of the throughput. As a result, federal 
agencies charged a right-of-way fee for each strand of cable that went 
down the pipe. As you can imagine, this fee structure caused a great 
deal of concern because it had the potential to dramatically increase 
fees by as much as 1,500 percent, and thereby discouraged deployment of 
fiber optics to rural areas, like Wyoming, where the federal government 
owns a significant amount of land.
    Through rulemaking, we have worked to address these problems, yet 
need to find a more permanent solution. H.R. 762 is that solution. This 
bill ensures that rights-of-way fees are reasonable and will help 
facilitate the deployment of critical infrastructure to areas that were 
adversely affected by the previous fee system. This bill creates a 
policy that protects the value of our federal lands, without altering 
current environmental protections, and at the same time helps to ensure 
that these federal lands continue to be available to a multitude of 
compatible uses.
    This is a good bill, for Wyoming, and for other States in the West 
and I look forward to working with my colleagues in the Senate to pass 
H.R. 762. Again, thank you, Mr. Chairman, for holding this hearing. I 
look forward to hearing the Administration's views on this piece of 
legislation.

    Senator Craig. With that, Tom, we thank you very much. We 
have tried to make this as painless as possible, and, while 
this is not necessarily a record hearing, in light of the scope 
and the magnitude of the legislation, it comes close time-wise.
    Mr. Thompson. Thank you for this opportunity.
    Senator Craig. Thank you very much. The subcommittee will 
stand adjourned.
    [Whereupon, at 3:09 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    [Answers to the following questions were not received at 
the time this hearing went to press.]
               Answers to Questions From Senator Bingaman
             s. 434--idaho panhandle forest improvement act
    Question 1. Section 3(a)(3) authorizes the Secretary to sell or 
exchange the Shoshone Work Camp. How many acres does this parcel 
include?
    Question 2. What is the approximate value of the three parcels that 
the Secretary is authorized to convey in section 3(a)?
    Question 3. Section 4(d) states that the Agriculture Property 
Management Regulations shall not apply to any actions taken pursuant to 
this Act. Why is this provision necessary?
            s. 435--sandpoint land and facilities conveyance
    Question 1. What is the value of the land, including the building, 
conveyed by this bill?
    Question 2. Section 2(b) requires the Secretary to assume an 
obligation to repay debt. What is the amount of this obligation that 
the Secretary will be required to repay?
    Question 3. Section 3(e) states that ``Part 1955 of title 7, Code 
of Federal Regulations'' shall not apply to any action carried out 
under this section. Why is this provision necessary?
              h.r. 762--reasonable rights-of-way fees act
    Question 1. Section 2(a) of the bill amends the Federal Land Policy 
and Management Act (FLPMA) to add a new section 504(k). That subsection 
provides, in part, that the Secretary of the Interior shall amend the 
pertinent regulations ``to revise the per acre rental fee zone value 
schedule'' to reflect current values of land in each zone. Don't the 
relevant regulations for the Department of the Interior and the 
Department of Agriculture already reflect the current values of land? 
If not, why not?
    Question 2. Section 504(g) of FLPMA (43 U.S.C. 1764(g)) requires a 
holder of a right-of-way to pay the fair market value, as determined by 
the Secretary, for the use of the right-of-way. I understand that 
several previous studies have found that both the Department of the 
Interior and the Department of Agriculture have often failed to collect 
the full fair market value for rights-of-way. Will the linear right-of-
way fee established in H.R. 762 likely result in a higher or lower fee 
than the current FLPMA standard? (I'm interested in comparing the two 
fee standards, not the amounts actually collected in the past).
    Question 3. If your answer to question #2 is that the fee in H.R. 
762 will likely result in lower fees than the fair market value 
standard, then why is it in the best interests of the United States 
government to charge a fee that is less than the fair market value of 
the right-of-way?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                       State of Washington,
                                        Olympia, WA, June 11, 2003.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Senate Energy and 
        Natural Resources Committee, Washington, DC.

Re: Hearing of June 12, 2003 on H.R. 762, the Reasonable Right-of-Way 
Fees Act

    Dear Senator Larry Craig: As President of the Western States Land 
Commissioners Association, I would appreciate your adding to hearing 
record on H.R. 762 the concerns raised by the Western States Land 
Commissioners Association in the attached letter, when our members 
discussed the identical bill, H.R. 3258, at our conference last July. 
Our main concern is that of institutionalizing below-market rates, 
which affect both Federal and State revenues. We take as our point of 
reference the Federal Land Policy and Management Act (FLPMA) Sec. 102 
(a)(9), which established a policy that ``the United States receive 
fair market value of the use of public lands and their resources . . 
.''
    In addition, as a Lands Commissioner, I would like you to consider 
crafting a system that provides the following conditions:
    1. A common system for BLM and the Forest Service, which is 
currently the case.
    2. Reviewing rates on an annual basis for areas that are known to 
have rapidly changing market values. Rates for others might be reviewed 
every 5 years at a minimum, based on spot checks and other economic 
indicators. The current base was set in 1986 with an escalator that has 
been roughly 1 to 2 percent per year since 1994 and has not exceeded 
2.4 percent since that date. Spot checks could be done with appraisals, 
surveying county assessors and by using data purchased from key 
existing metropolitan real estate sales information systems.
    3. Differentiating urban from rural base rates and escalators, 
rather than averaging rates on a county-wide basis. Retain the current 
linear rights-of-way provision that allows the agencies to use local 
values, if they are significantly greater than the average county 
values.
    4. Using an intergovernmental, public-private committee of real 
estate professionals similar to that used to establish the system for 
BLM and Forest Service communications sites in November 1995 published 
in 43 CFR 2803.1-2. A representative professional group could determine 
whether a use or land surface value is more appropriate for each of the 
affected linear uses.
    5. Checking rates against market values by calling for a GAO report 
3 to 4 years after enactment and periodically, perhaps every 5 years, 
after that first report. An independent check is important to assure 
that base rates are revised at appropriate intervals. Market data in 
the Northwest showed that on a linear foot basis Forest Service fiber-
optic rates in the late 1990's were less than one cent versus fifty 
cents to a dollar for comparables.
    Thanks for your consideration.
            Sincerely,
                                           Doug Sutherland,
                     Washington State Commissioner of Public Lands.
                                 ______
                                 
       Statement of the Telecommunications Right-of-Way Coalition
    TelROW's members, including companies and trade associations in the 
communications and energy sectors, operate a network of more than 
100,000 miles of fiber-optic cable, and more than 700,000 miles of 
electric transmission lines, across the United States. Some of this 
critical infrastructure, especially in the west, crosses federal public 
lands. The companies who formed this coalition were motivated by 
several interim and proposed policies developed by the Bureau of Land 
Management and U.S. Forest Service (see attachments).* We support H.R. 
762 as a necessary amendment to the Federal Land Policy and Management 
Act (FLPMA), to ensure a reasonable approach to collecting right-of-way 
rents. H.R. 762 ensures that right-of-way rents are consistent with the 
fair value of the right to cross federal lands, thus promoting sound 
management of these public resources, and advancing the public's 
interest in these lands.
---------------------------------------------------------------------------
    * The attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    TelROW appreciates the opportunity to provide written testimony to 
the Subcommittee, as well as the efforts by the Subcommittee, the full 
Committee, and its leadership in working with the Bureau of Land 
Management and U.S. Forest Service to address concerns about the 
original regulatory proposals that identified the need for this 
legislation. While we believe that fee increases and changes in the 
right-of-way valuation methodology were ill advised, we appreciate the 
constructive efforts of the Bureau of Land Management and U.S. Forest 
Service, in reaching out to stakeholder and professional groups like 
the Appraisal Institute and TelROW, and in working with the House 
Resources Committee and Representative Barbara Cubin to refine earlier 
drafts of H.R. 762. We believe that passage of H.R. 762 will facilitate 
the resolution of what has been a long, difficult process, and a source 
of much uncertainty for federal land managers and those companies who 
deploy and manage critical network infrastructure. Passage of H.R. 762, 
as well as the continuation of efforts underway by federal land 
managers and agencies to streamline and simplify the establishment and 
management of linear rights-of-way, are important steps to protect and 
facilitate critical network infrastructure, including pipelines, 
powerlines, and communication facilities.

                      introduction and background

    Communications providers and other operators and owners of linear 
infrastructure pay the federal government for the use of rights-of-way 
(ROW) over lands administered by the U.S. Forest Service (USFS), the 
Bureau of Land Management (BLM), and other federal agencies. Currently, 
the fees for rights-of-way on federal lands are based on a proxy for 
the market value of the land, the size of the right-of-way, and the 
number of cables, pipes, or other distinct facilities. These 
calculations are reasonably equivalent to the land value and the 
physical impact of the facility.
    Recently, however the BLM and USFS proposed to increase ROW fees, 
by changing the basis of the calculation for ``fiber-optic projects,'' 
based on data they believed demonstrated a special, separate ``value of 
fiber-optic use and occupancy.'' These interim and proposed policies, 
however, capture neither the fair market value of the land over which 
fiber-optic cable is conveyed, nor the consequent impact on federal 
lands and resources. Instead, the proposed policies attempt to capture 
a portion of telecommunications revenues, by charging for uses not 
based on the value of land to the federal government or impacts 
thereto, but by rates specific to the technology or economic value of 
the facilities themselves. We believe these policies are based on 
arbitrary assumptions and anecdotal evidence regarding the ``market'' 
value of telecommunications easements across private, state, and 
municipal lands, sometimes in distant, urban settings. The first 
instances in which these proposed and interim policies were implemented 
resulted in fees 150 times those in the published, established, and 
legitimate federal fee schedules. The USFS and BLM have failed to 
justify such large increases based either on actual land value or on 
land impact. Currently, after much Congressional inquiry and stern 
oversight, the agencies have indefinitely delayed implementation of new 
fees.
                 the proposed methodologies are unjust

    The methodologies proposed by the BLM and USFS are inconsistent 
with current regulations and policies applied to other infrastructure 
providers. Forcing critical infrastructure providers to pay 
dramatically increased fees for the use of federal lands, particularly 
where the new use is similar or compatible to other existing uses, 
involving impacts identical to or less than uses for which a lower fee 
is charged, is inconsistent. Such policies protect neither the public 
land nor the public interest. Such policies do not accomplish the goals 
of protecting the value of federal lands or natural resources. They 
amount to a tax on the services conveyed by these facilities. 
Furthermore, under such policies, federal lands and other reservations 
become roadblocks or toll booths to interstate and international 
commerce.

    agency officials have recognized the inequity of these policies

    The Interagency Land Acquisition Conference, an ad hoc group of 
appraisers and real estate professionals in the federal government, 
recognized the inappropriate nature of these technology-based 
valuations in their most recent revision to the Uniform Appraisal 
Standards for Federal Land Acquisition (see Attachment). The Conference 
indicated that the federal government should not pay inflated 
technology-based prices when acquiring rights-of-way over lands owned 
by private citizens or other entities. However, in addressing what a 
federal agency may charge for the use of an easement on federal land, 
the participating agencies indicated, quite inconsistently, that they 
saw no reason why federal agencies could not charge private easement 
holders these technology-specific rates. Thus, the agencies made clear 
that, technology-based prices for leasing rights of way are 
inappropriate when a federal agency has to pay such inflated rates, but 
may be perfectly appropriate when the federal agencies are the 
recipient of such fees. In both cases, we are talking about definitions 
of ``fair market value.'' It is important to note that many of the same 
appraisers who crafted this inconsistent internal agency policy are the 
same individuals advising the new fiber-optic fee schedules.

     the proposed methodology is contrary to real estate appraisal 
                               principles

    Generally speaking, easement values are determined to be somewhat 
less than the fee value of the land upon which the easement is 
established, since these rights-of-way consist of a limited contract to 
use lands for a specific purpose. These valuations are guided by two 
basic principles: 1) ``before and after'' value, which ascribes a value 
to easements equal or similar to the reduction of value or utility 
resulting from an easement use; and 2) ``willing buyer-willing 
seller,'' a principle which suggests that the parties to an easement 
transaction enter as willing and equal participants, with an array of 
possible options. The approach taken by federal agencies focuses on 
situations where cities or other entities have incorporated franchise-
like fees into required easement payments, or where individual 
landowners have leveraged their ability to ``hold out'' or obstruct 
established rights across adjacent lands to obtain higher payments for 
easements on their land. These cases are exceptional, and should not 
alter the established principles, which base easement payments on the 
underlying property value.
land value is the proper measure of fair market value for rights-of-way
    Since there is no true market in federal land, overall valuation, 
as well as the cost of the land impact, must be estimated. While it is 
appropriate for the government to come up with some methodology to 
estimate values, in this case, we believe they have chosen to apply 
inappropriate principles. An estimation of ROW value must be based on 
the estimated value of the land, and on the estimated impact of the 
project on the value of the remaining land, not on the value of 
technology installed or associated commerce. A cost or impact-based 
principle is the universal methodology used by right-of-way project 
developers to determine constitutional levels of payment for rights-of-
way obtained from private parties in condemnation proceedings. This is 
how the Federal Government determines how much to pay private land 
owners when they acquire rights-of-way for roads or other public 
projects.
              the market value of most federal land is low
    Government-held land is subject to far more restrictions than is 
similar private property. This is because federal statutes restrict 
activities on federal lands to accomplish other public objectives. For 
instance, federal easement holders cannot obtain permanent rights-of-
way, and must obtain federal regulatory approval to engage in routine 
maintenance. Such restrictions increase operating costs, and thus 
dramatically decrease the value of the federal land easements. 
Furthermore, development of federal lands is limited, as they are not 
made available for many of the competing uses possible on private 
lands, and therefore federal lands are generally of lower real estate 
value than similar privately-held lands. As a result, any policy that 
attempts to draw direct associations between right-of-way fees on 
private lands and fair equivalents on federal lands must take into 
account factors which reduce the utility and value of federal land 
easements, and which limit the value of federal lands.
    the agency proposals are inefficient and environmentally unsound
    These new fee schedules, proposed to increase fees incrementally 
based on the number of users, or are based on the type of technology 
rather than the land value and use, discourage the construction of 
dark-fiber or additional unused capacity, which can be utilized at a 
later date. Discouraging the installation of fiber that may be 
currently unused simply means that additional capacity needed in the 
future may require additional complete installations, with the related 
economic costs and environmental impacts of reaccessing federal lands 
and resource areas. Such additional installations would be unnecessary 
if large numbers of fibers, cables, or ducts, even though 
underutilized, were installed all at one time, at one fee.
    The USFS and BLM, which currently administer ROW through a single, 
consistent linear fee schedule, have indicated their intention to 
increase fees for fiber-optic rights-of-way first, and then proceed to 
reissue fees for other facilities, such as pipelines, power lines, 
water lines, et cetera. As I noted earlier, and as you will hear from 
my colleague from the Interstate Natural Gas Association of the 
Americas, the impacts of such fees on our nations energy infrastructure 
could be devastating for companies that supply or deliver these 
services and commodities.
    USFS and BLM have initiated a trend among other federal agencies 
that manage public lands. Through authorizing statutes other than 
FLPMA, the National Park Service and National Oceanic and Atmospheric 
Administration have drafted or are considering similar policies 
charging fees for the right to cross parks and marine sanctuaries with 
fiber-optic cables. It is important to note that none of these rights-
of-way are established until extensive NEPA analyses have been 
conducted, and deliberate and due care has been taken to prevent and 
monitor impacts to the environment. Despite the conclusions of 
government studies, indicating little or no ecological harm, these 
agencies have followed the lead of the BLM and USFS in pursuing 
exorbitant increases in right-of-way rents and other compensation for 
the right to cross federal lands.

                               conclusion

    Rights-of-way for fiber-optic telecommunications and other linear 
facilities are an important use of federal lands, whose impact on the 
underlying value, and other uses of those lands is minimal. To 
paraphrase FLPMA, rent for rights-of-way should be no greater than the 
value of the rights and privileges authorized by the right-of-way grant 
or permit, and should reflect a public interest in the construction of 
such facilities. Furthermore, we believe that valid, established real 
estate principles should underlie any regulatory decisions made as to 
the value of rights-of-way. TelROW supports passage of H.R. 762, as 
well as other regulatory and legislative processes through which a 
reasonable, practical, and consistent linear right-of-way fee schedule 
can be developed.
    We recognize that these agencies may have, in good faith, 
misinterpreted the intent of Congress in charging ROW fees, and believe 
that through the additional guidance provided by H.R. 762, and a public 
rule making process with adequate opportunity for notice and comment 
from all stakeholders (the process through which the existing fee 
schedule was established), the existing fee schedule can be revised, if 
necessary, to more accurately reflect the value of these rights-of-way. 
Prompt resolution of this issue will provide certainty to the purveyors 
of our Nation's critical infrastructure, who are committed to 
delivering reliable, secure, and vital products, utilities, and 
services to America's consumers and growing economy. We look forward to 
working with this Committee, Federal Land Management Agencies, and 
other interested stakeholders pursuant to what we believe is a common 
goal, in the public interest.


</pre></body></html>
